EXHIBIT

1

suprcmc @ourt of

fltrÍùs

No. SC2O- 1036
ED1IIARD T. JAMES,

Appellant,
VS.

STATE OF FLORIDA,
Appellee.

July 8, 2A2I

PER CURIAM.

Edward T. James, a prisoner under sentence of death, appeals

the trial court's order summarily dismissing his successive motion

for postconviction relief, which was filed under Florida Rule of

Criminal Procedure 3.851. We have jurisdiction. See art. V,

3(b)(1), Fla. Const. For the reasons we explain, we affirm.

I.

James pleaded guilty

S

BACKGROUND

in 1995 to two counts of first-degree

murder and was sentenced to death. James u. State, 695 So. 2d
T229 (Fla. 19971. We affirmed James's convictions and death

sentences on direct appeal. Id.

at 1238. James's convictions and

sentences became final on December 1, L997 , when the United

States Supreme Court denied certiorari review of the direct appeal

proceeding. James u. Florída, 522 U.S. 1000 (1997), see Fla. R.

Crim. P. 3.851(d)(1XB) ("For the purposes of this rule, a judgment is

final . . . on the disposition of the petition for writ of certiorari by

the United States Supreme Court, if filed.").

James filed a motion for postconviction relief on
May 27, L998. An amended motion was filed on
November L, 2OOL. A third amended motion was filed
September 1O, 2OO2. The trial court set an evidentiary
hearing on some of the claims. However, on March 10,
2OO3, James filed, pro se, a notice of voluntary dismissal
of the postconviction proceedings. The trial court
subsequently held a hearing to determine whether James
was competent and fully understood the conseqLtences of
dismissing the postconviction motion filed on his behalf.
During the hearing, the trial court followed a procedure
mandated by this Court to ensure that James understood
the consequences of discharging counsel and
withdrawing his postconviction motion. In essence,
James rvvas informed by the trial court that his actions
would result in the waiver of any legal barriers to the
State's ability to enforce the sentence of death. On April
22,2OO3, the trial court entered an order discharging
counsel and allowing James to withdraw his
postconviction motion. In the order, the trial court also
notified James that he had thirty days to appeal the
order, and further warned that the time for filing for relief
in the federal court might be affected by the dismissal of
state proceedings. No appeal was filed.
2

Subsequently, in November 2005, James contacted
CCRC [Capital Collateral Regional Counsel] and indicated
that he had changed his mind, and he requested
reappointment of counsel to resttme postconviction
proceedings. CCRC filed a motion on his behalf in the
trial court seeking to reinstate postconviction
proceedings. After a hearing, the trial court denied the
motion on January 17 , 2006. Thereafter, James wrote a
letter to this Court, which \Mas treated as a notice of
appeal from the order denying reinstatement of the
postconviction proceedings.

James u. State,974 So. 2d 365, 366-67 (Fla. 2008) (footnote

omitted).

In affirming the trial court's denial of James's request to

reinstate the postconviction proceedings, we wrote:

In this appeal, James does not attack the validity of
the prior waiver hearing. Rather, it is apparent that

James has simply changed his mind and has decided he
wants "to take up [his] appeals again." However, we
conclude that a mere change of mind is an insufficient
basis for setting aside a previous waiver. The procedures
we have outlined in Durocherlu. Singletary,623 So. 2d
482, aB3 (Fla. 1993)] and other cases are intended to
allow condemned prisoners to waive postconviction
counsel and dismiss the proceedings only when it can be
determined that such prisoners are competent and fully
understand the consequences and finality attached to a
waiver. Those proceedings are mandated to ensure that
a capital defendant is making an intelligent and knowing
decision while respecting his wishes to determine hís
fate. Because there is no dispute that those procedures
were followed here and James has asserted no valid basis
for avoiding his waiver, we affirm the trial court's order

-3-

denying James'request to reappoint CCRC to resume
postconviction proceedings.

Id. at 368.

On November L4,2019, James filed the instant successive

3.851 motion, raising five claims: (1) ineffective assistance of

counsel for failing to adequately investigate and prepare a defense

or challenge the State's case and encouraging James to plead to all

charges; (2) ineffective assistance of counsel for failure to raise the

issue of James's competence; (3) James

\Ã/as

incompetent at the

time of his state postconviction waiver; (4) James's death sentences

violate the Sixth and Fourteenth Amendments in light of Hurst u

Florida,577 U.S. 92 (2O16); and (5) cumulative errors deprived

James of a fundamentally fair tria1., guaranteed under the Sixth and

Fourteenth Amendments. After holding a case management

conference, the

trial court summarily dismissed the successive

motion. This appeal follows.

II.

ANALYSIS

In dismissing James's claim that he was incompetent at the

time of his state postconviction waiver, the trial court wrote:

At the case management conference, the Court first
addressed the timeliness of the [instant successive]

-4-

motion. For the first time, the Defendant argued that he

was incompetent to enter his plea or waive his rights to
pursue collateral relief in 2003. Defendant's argument
regarding this issue fails. The Defendant has not given
any legal justification for waiting nearly seventeen years
after the voluntary dismissal of his motion to claim he
was incompetent to enter that waiver. The initiation of a
federal petitionll] does not constitute newly discovered
evidence that would authorize a defendant to override a
prior voluntary waiver or overcome the time bar. "To be
considered timely fìled as newly discovered evidence, the
successive rule 3.851" motion was required to have been
filed within one year of the date upon which the claim
became discoverable through due diligence." Jimenez u.
State,997 So. 2d 1056, LO64 (Fla. 2008), as reuised on
denial of reh'g (Sept. 29,2OO8), as reuised on denial of
reh'g (Dec. 18, 2008). He asserts that he was
incompetent to dismiss his collateral motion, but issues
relating to hís competence to waive his rights would have
been discoverable within one year of that waiver. See id.;
Fla. R. Crim. P. 3.851(d)(2). Notably, he did not claim
that he was incompetent to make the decision in his
2006 action to rescind his waiver or at any time until
2OL9. This Court finds that ground 3 is untimely.
Accordingly, the other substantive claims raised in
grounds I,2, and 5 are also untimely.
We conclude that the

claims

I,2,3,

trial court did not err in dismissing

and 5 as untimely. James's convictions and

sentences have been final for more than twenty-three years, and

James makes no argument as to why he believes these claims were

1. James filed a federal habeas petition in 2018.
5

timely or why the trial court erred in dismissing them as untimely.

Nor does he allege that any of the exceptions provided in rule

3.851(d)(2) to the one-year time limitation on motions for

postconviction relief are applicable here. Further, because the

issue of James's competency to waive his state postconviction

proceedings was raised and resolved in a prior postconviction

proceeding, it is procedurally barred and not subject to relitigation

in the instant proceeding.

As to James's claim that his death sentences violate the Sixth

and Fourteenth Amendments in light of Hurst, the trial court

correctly noted that not only was this claim untimely under rule

3.851 but also that James would not be entitled to relief under our

recent decision in State u. Poole,297 So. 3d 487 (Fla.2O2Ol, cert.

denied, 141 S. Ct. 1O5I (2O2Il. Moreover, our earlier decision in

AsW u. State, 2IO So. 3d 1 (Fla. 2016l, precluded relief for James,

whose conviction became final

For these reasons,

ilI.

\Me

in

1997

.

CONCLUSION

affirm the trial court's order summarily

dismissing James's srJ.ccessive motion for postconviction relief.

It is so ordered.

6

CANADY, C.J., and POLSTON, LABARGA, LAWSON, MUNIZ,
COURIEL, and GROSSHANS, JJ., concur.

NOT FINAL UNTIL TIME trXPIRES TO FILE REHEARING MOTION

AND, IF FILED, DETERMINBD.

An Appeal from the Circuit Court in and for Seminole County,
Jessica J. Recksiedler, Judge Case No. 59 1993CFOO32374000XX

Robert S. Friedman, Capital Collateral Regional Counsel, and Karin
L" Moore, Assistant Capital Collateral Regional Counsel, Northern
Region, Tallahassee, Florida,

for Appellant

Ashley Moody, Attorney General, Tallahassee, Florida, and Patrick
Bobek, Assistant Attorney General, Daytona Beach, Florida,
for Appellee

7-

trXHIBIT

2

åuprwrw @ourt úfloriùs
MONDAY, AUGUST 30, 2O2I

CASE NO.: SC2O-1O36
Lower Tribunal No(s).:
59 1993CF003237A000XX

EDWARD T. JAMES

Appellant(s)

VS.

STATE OF FLORIDA
Appellee(s)

Appellant's Motion for Rehearing and Clarification is hereby

denied.

CANADY, C.J., and POLSTON, LABARGA, LAWSON, MUÑIZ,
COURIEL, and GROSSHANS, JJ., concur.

A True Copy
Test:

JoÉnA. Tomasino
Ctrerk. Suprerfle Court

i¡

kc

Served:

KARIN L. MOORE
KALEN D. REDDY
PATRICK ALBERT BOBBK
STEWART STONE
HON. GRANT MALOY, CLERK
JESSICA J. RECKSIEDLER, CHIEF JUDGE

fr

o

